<html>
<title> - SECURING AMMONIUM NITRATE: USING LESSONS LEARNED IN AFGHANISTAN TO PROTECT THE HOMELAND FROM IEDS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  SECURING AMMONIUM NITRATE: USING LESSONS LEARNED IN AFGHANISTAN TO 
                     PROTECT THE HOMELAND FROM IEDS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,

                       INFRASTRUCTURE PROTECTION,

                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2012

                               __________

                           Serial No. 112-105

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                               __________


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                 Zachary D. Harris, Subcommittee Clerk
        Chris Schepis, Minority Senior Professional Staff Member

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California........................................     3

                                Appendix

Lieutenant General Michael D. Barbero, Director, Joint IED Defeat 
  Organization, United States Army, Department of Defense:
  Prepared Statement.............................................     5
Mr. John P. Woods, Assistant Director, Homeland Security 
  Investigations, Immigration and Customs Enforcement, Department 
  of Homeland Security:
  Prepared Statement.............................................     8
Mr. Charles Michael Johnson, Jr., Director, International 
  Counterterrorism & Security Assistance Issues, Governement 
  Accountability Office:
  Prepared Statement.............................................    11


  SECURING AMMONIUM NITRATE: USING LESSONS LEARNED IN AFGHANISTAN TO 
                     PROTECT THE HOMELAND FROM IEDS

                              ----------                              


                        Thursday, July 12, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren and Richardson.
    Also present: Representative Turner.
    Mr. Lungren. The Committee on Homeland Security 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    The subcommittee is meeting today to receive testimony on 
the security of ammonium nitrate and the threat of IEDs to the 
homeland. After consultation with Ms. Clarke, the Ranking 
Member, and the witnesses, there is agreement that due to the 
sensitive nature of this topic, following the Members' opening 
statements, the subcommittee should recess and reconvene in a 
closed classified session. Specifically, both the Department of 
Defense and the Department of Homeland Security have indicated 
that disclosure of the matters to be considered here today, 
including the disclosure of potential domestic threats, would 
endanger National security.
    Therefore, pursuant to House Rule XI(g)(1), I ask unanimous 
consent that the hearing move to a closed setting at such 
appropriate time.
    Without objection, it is ordered.
    I would now recognize myself for an opening statement.
    Pursuant to agreement I have with the Minority side, if Ms. 
Clarke is able to get here before we move to the closed 
session, she would give her opening statement at that time. If 
she comes at the time we are going down to closed session, she 
would be given the opportunity to do her opening statement in 
the closed session, or we may have it spoken here. We will have 
that determined shortly.
    I want to thank our witnesses for appearing today and 
agreeing to share with us their experience and their expertise 
in countering the growing threat from improvised explosive 
devices, otherwise known as IEDs. I also want to express my 
strong disappointment that the National Protection and Programs 
Director to the Department of Homeland Security declined our 
invitation to testify.
    The IED is killing our troops on the Afghan battlefield at 
an alarming rate. During the 2011 fighting season, 1,978 
American casualties were attributed to IEDs. This year, there 
have been fewer IED attacks, but they have been, unfortunately, 
more deadly. The IED continues to be the deadly weapon of 
choice by insurgents in Afghanistan, responsible for 47 percent 
of our troop casualties and 60 percent of civilian casualties.
    There was no more tragic example of the lethal consequences 
of an IED attack than last Sunday when six American soldiers 
were killed by a roadside IED in Afghanistan.
    However, the IED threat is not limited to Afghanistan. It 
is a global threat. There are 500 IED events globally per month 
outside of Afghanistan. It is also being used routinely in 
Iraq, Colombia, Pakistan, India, and Syria. IEDs have also 
delivered death and destruction in our homeland, the 1993 World 
Trade Center truck bomb, the Oklahoma City bomb, the Times 
Square car bomber. It is an unsettling fact that 17 years after 
Oklahoma City, that type of bomb could still be made today.
    The purpose of our hearing today is to review what lessons 
have been learned to counter this serious IED threat, what 
training, tactics, and techniques have been developed to combat 
IEDs in Afghanistan, and how those lessons can benefit our 
homeland defense.
    I am a strong believer that the best defense against 
terrorist attacks, including IEDs, is good intelligence. 
Intelligence is always more effective when shared with the 
agencies responsible for our counter-IED efforts. This 
interagency coordination information sharing will help us 
provide the strongest response to the IED homeland threat.
    Project Global Shield, developed by ICE and CBP is one of 
the efforts Director Woods will talk about today. It is a great 
example of a well-coordinated DHS effort to counter the IED 
threat. Global Shield is increasing international cooperation 
and collaboration on investigations into the trafficking of 
precursor chemicals used to manufacture explosive devices. One 
hundred seventy-seven world customs organization countries have 
now joined the effort to track illicit precursor chemicals.
    This international effort has already seized 62 metric tons 
of precursor chemicals and made 31 arrests. When possible, 
attacking the IED threat at its source is clearly our best 
strategy.
    General Barbero will describe JIEDDO, working with the CIA, 
FBI, and DHS, is participating in a whole-of-Government 
approach targeting the IED chemical supply chain. This approach 
includes defining a common picture of the supply chain, 
identifying key facilitators of raw materials in the IED 
pipeline, and uncovering their financial networks, 
institutions, and financiers. This whole-of-Government approach 
emphasizes the importance of interagency coordination and 
information sharing to more effectively counter the IED threat.
    While all these programs and cooperative efforts are 
helpful in the counter-IED effort, they are not enough, as was 
demonstrated by the 500 IED events that still occur. Improving 
our counter-IED effort is certainly our goal, and I look 
forward to the testimony of our distinguished witnesses today 
to describe how that can be done.
    I would just mention that ammonium nitrate is mentioned in 
the title of our hearing today. We know it is a ubiquitous 
chemical. It is something we have discussed in this committee 
before and this subcommittee before. It is something that is 
properly used in the area of agriculture, and we have Members 
of this committee who represent districts in which that is used 
rather readily for appropriate purposes. The challenge we have 
is: How do you allow this for appropriate purposes, and at the 
same time, have those tools available that will allow us to 
interrupt the improper and lethal use of that chemical and 
others like it?
    Now, Ms. Richardson, I would recognize you for giving the 
statement of the Minority.
    Ms. Richardson. Thank you, Mr. Chairman, for holding this 
hearing today, as the testimony before the subcommittee today 
will allow us to learn about the efforts of the Department of 
Defense and the collaborative interagency efforts of DHS and 
many other U.S. agencies to stem the cross-border flow of 
explosive chemicals in Afghanistan and Pakistan.
    I want to thank all of our witnesses for being here and all 
of you for your personal experience in this issue we are about 
to cover today. However, my preference would have been to take 
testimony in public in an unclassified format. I am sure we 
could have asked all of our witnesses to come back and to give 
us a classified briefing if needed, Mr. Chairman, but I will 
not object to your motion to go into executive session.
    General, it is good to have an opportunity to meet with you 
today and we look forward to welcoming you and hearing your 
testimony.
    This subcommittee has been very active on this issue of 
domestic infrastructure protection and certainly on the 
protection of our chemical facilities, as the Chairman alluded 
to, from threats in illicit use of ammonium nitrate and other 
explosive precursors. This is something that every Member here 
thinks about on a daily basis, and it is our job to develop 
legislation to address these complicated issues.
    As our Ranking Member has said many times before, we have a 
lot of expertise on this subcommittee and we have worked 
carefully with the industry and security experts to balance the 
needs of our farmers, our industrial users, and with very 
challenging complex and security issues as well.
    Balancing domestic concerns in a stable, civil society that 
facilitates the smooth flow of commerce and supports the 
biological processes of our farming operations can sometimes 
present a more intricate challenge than might exist in other 
geopolitical settings.
    We look forward to learning about the Department of 
Homeland Security's efforts to oversee how they collaborate 
with other agencies and countries and how that experience can 
inform us in developing more secure approaches to confront the 
threats posed by the use of explosive chemicals in our Nation.
    With that, Mr. Chairman, I yield back.
    Mr. Lungren. I thank the gentlelady for her statements. 
Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    I would ask unanimous consent that the gentleman from New 
York, Mr. Turner, a Member of the full committee, be allowed to 
fully participate in today's hearing.
    Without objection, so ordered.
    Pursuant to the previous unanimous consent, the 
subcommittee will recess for at least 15 minutes and no more 
than 30 minutes so that we can reconvene in closed session in 
room HVC-302. We have votes scheduled, I think, at 11:30 today, 
so if we could be as quick about moving over there as possible. 
I apologize. Votes come up. We have got to make them. We didn't 
have a schedule of the votes at the time we scheduled this 
hearing. So we will move as quickly as we can on this important 
subject.
    [Whereupon, at 10:18 a.m., the subcommittee proceeded in 
closed session, and was subsequently adjourned at 11:36 a.m.]


                            A P P E N D I X

                              ----------                              

Prepared Statement of Lieutenant General Michael D. Barbero, Director, 
   Joint IED Defeat Organization, United States Army, Department of 
                                Defense
                             July 12, 2012
    Chairman King, Chairman Lungren, Ranking Member Clarke, and Members 
of the subcommittee, thank you for inviting me to speak with you today 
on the efforts to protect our troops from improvised explosive device 
(IED) attacks and share some lessons the U.S. military has learned that 
could be applied to the homeland.
    In 2006, the Department of Defense (DoD) established the Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) to focus on 
the IED threat in Iraq and Afghanistan. JIEDDO's mission is to lead the 
Defense Department's actions to rapidly provide counter-IED (C-IED) 
capabilities in support of combatant commanders through rapid 
acquisition, tactical operations-intelligence fusion, and pre-
deployment training. JIEDDO is singularly focused on this problem and 
exists to rapidly field capabilities to reduce the effectiveness of 
this asymmetric weapon.
    It is clear the IED is the primary weapon of choice for threat 
networks globally and is one of the enduring operational and domestic 
security challenges for the foreseeable future. The global 
proliferation of IEDs and associated technology is pervasive and 
continues to threaten U.S. interests at home and abroad. Since 2007, 
IED incidents outside of Iraq and Afghanistan have increased to more 
than 500 IED events per month, with Colombia having the greatest number 
of IED events followed by Pakistan, India, the United States, and 
Syria, which recently moved into the top five.\1\ Since January 2011, 
there have been more than 10,000 global IED events occurring in 112 
countries, executed by more than 40 regional and transnational threat 
networks.\2\
---------------------------------------------------------------------------
    \1\ Worldwide IED Database, Institute for Defense Analysis, June 
2012.
    \2\ Worldwide IED Database, Institute for Defense Analysis, June 
2012.
---------------------------------------------------------------------------
    The domestic IED threat from both home-grown extremists and global 
threat networks is real and presents a significant security challenge 
for the United States and our international partners. In the early 
1980s, the Provisional Irish Republican Army used ammonium nitrate-
based IEDs in multiple attacks in London. The United States witnessed 
first-hand just how deadly ammonium nitrate can be in the 1995 Oklahoma 
City bombing that claimed the lives of 168 American citizens. Most 
recently, we saw the devastating effects in Mumbai, India, and Oslo, 
Norway; both attacks used ammonium nitrate as an explosive. Throughout 
the world these devices and the networks that use IEDs will remain a 
threat for decades to come.
    Since the successful attacks on September 11, 2001, externally-
based global threat networks have attempted numerous failed attacks 
such as the underwear bomb aboard Northwest Airlines fight 253 on 
Christmas day in 2009, the failed Times Square car bombing in 2010, and 
the ink cartridges packed with explosives aboard two separate cargo 
planes in 2010. These attempts clearly demonstrate the commitment of 
these threat networks to continue to employ IEDs against our homeland 
in traditional as well as new and creative ways. The use of advanced 
IED technology and sophisticated tactics, techniques, and procedures 
provide individuals and transnational networks with cheap and easily 
accessible means to achieve high-visibility effect.
    The extremist networks that employ IEDs have proven to be 
resilient, adaptive, interconnected, and extremely violent. 
Globalization, the internet, and social media have extended the reach 
of these organizations, providing platforms for recruiting, technical 
exchanges, training, planning, funding, and social interaction. We see 
IED tactics and techniques used by insurgents increase in 
sophistication and proliferate globally. Wherever we see turmoil or 
insecurity we see the spread of these networks and the spread of IEDs.
    Today's IEDs are relatively simple, low-tech devices, which 
routinely use command wire, pressure plates, or radio-controlled 
triggers. Many readily available components such as cell phones, 
agricultural fertilizers, and simple electronic transmitters and 
receivers have legitimate commercial uses, but are easily and 
increasingly adapted for illicit purposes in manufacturing IEDs. The 
dual-use nature of IED components poses unique challenges in our 
ability to regulate and limit terrorist access to IED precursors and 
trigger components.
    Future bomb-makers will incorporate such enhancements as ultra-thin 
and flexible electronics; advanced communications mechanisms such as 
blue-tooth, Wi-Fi, and broadband; optical initiators; and highly 
energetic metals. In addition to more sophisticated technology, threat 
networks will develop enhanced IED concealment techniques and may even 
combine IED use with concurrent cyber attacks.
    Today and in the future, U.S. forces will operate in an IED 
environment. While IEDs cannot stop our units or deter our commanders 
from taking the fight to the enemy, these devices are the greatest 
source of combat casualties this decade. The cumulative effects of 
casualties, both killed and wounded in action, inflicted on our force 
and magnified by insurgent information operations have made IEDs a 
challenge for the United States and a top priority for DoD.
    To counter the IED and threat networks that employ these devices, 
JIEDDO focuses our activities along three lines of operation: Defeat 
the Device, Train the Force, and Attack the Network. To enable a 
successful C-IED program, these lines of operation must work in 
harmony.
    Our first line of operation, defeating the device, is the immediate 
and most obvious approach to protecting our service members from IEDs. 
As hard as we try, we cannot stop every IED from being employed. 
However, once the IED finds its way to the battlefield, we have fielded 
a wide spectrum of initiatives to detect the components, neutralize the 
triggering devices, and mitigate the effects of an IED blast. DoD has 
developed and rapidly deployed a comprehensive portfolio of 
capabilities, such as mine rollers, electronic countermeasures 
(jammers), robotics, handheld detectors, pelvic protection garments, 
and aerial and ground surveillance systems, to name a few. We do not 
rely on just one capability. Our warfighters are provided an arsenal of 
tools to customize and apply to the IED threat.
    Defeating the device is critical to lowering effective attacks and 
casualties. If we fail in this task, we could experience an 
unacceptable level of causalities, resulting in the loss of will and 
ultimately mission failure. While defeating the device is important it 
is not decisive. Focusing solely on defeating the device relegates us 
to playing defense and surrenders the initiative to the enemy.
    The second area in which we focus our efforts is training. The 
Train the Force line of operation brings our deploying warfighters up 
to speed on the full range of available C-IED tools and the latest 
tactics, techniques, and procedures emerging from theater. A well-
trained warfighter is our best C-IED weapon. A comprehensive pre-
deployment training approach is required to ensure our force has 
adequate time to understand the integration of all aspects of the C-IED 
fight before deploying to theater.
    The third line of operation, attack the network, is the decisive 
endeavor. It encompasses all the material and non-material C-IED 
enablers to attack the network by first identifying, and then 
exploiting, critical enemy network vulnerabilities. Attacking the 
network is the most complex line of operation, but it is how we achieve 
decisive results.
    JIEDDO has built a deep base of knowledge in data fusion and 
visualization to enable operational intelligence analysis. This 
analysis, in turn, enables military and interagency customers to attack 
violent extremist networks by using more than 180 data sources and 
numerous Government and commercial off-the-shelf analysis tools. We 
have five intelligence agencies embedded within our organization to 
cross-train on the various tools, processes, and best practices.
    The key enabler for achieving seamless sharing of information 
begins with applying new techniques to enhance data processing upon 
intake. The better we can sort or mine data, the faster our analysts 
can manipulate this information to produce actionable intelligence for 
our leaders and actionable evidence for our interagency partners. The 
speed at which these threat networks operate mandates our ability to 
produce faster analytical assessments of emerging operational 
environments to support rapid exploitation. This requires us to think 
differently and expand our community of action to share and fuse 
information among domestic and international partners.
    Today, JIEDDO is working with an expanded community of action for 
C-IED that did not exist previously. We have established an interagency 
forum consisting of U.S. intelligence and interagency partners, Federal 
law enforcement, the Five Eyes (United States, United Kingdom, Canada, 
Australia, and New Zealand) community, and forward-deployed forces to 
achieve a more transparent and broader whole-of-Government effort to 
disrupt threat networks employing IEDs against U.S. and Coalition 
forces globally.
    We recognize no single Government department or international 
partner has the ability to fully limit access to IED precursors, so we 
are integrating our efforts to go after the threat networks that 
distribute these materials. Our U.S. Government partners bring 
expertise in: Defeating and prosecuting criminal networks; applying 
financial pressures by going after the assets of IED network members, 
financers, and distributors; enacting export controls and treaty 
compliance efforts that lead to the interdiction of IED components; 
advancing C-IED objectives through public diplomacy and policy and 
regulatory changes; advising on legitimate agricultural requirements; 
and coordinating and executing domestic C-IED efforts through the 
Department of Justice Joint Program Office. This is by no means a 
comprehensive list of the actions our interagency partners are applying 
to the C-IED fight, but it should give you an idea of the collaboration 
that is occurring on all levels.
    To provide a couple of specific examples, the U.S. Department of 
Commerce added 152 persons to the Entity List because of IED-related 
matters. This designation stops U.S. companies from trading with these 
entities--companies, organizations, persons--who violated U.S. export 
laws. Since October 2010, the U.S. Department of Treasury has imposed 
economic sanctions on 33 Afghanistan-Pakistan IED facilitators. Through 
coordinated efforts and strong partnership across the U.S. Government 
and with our international partners, we are going after these nefarious 
actors and effectively countering the networks that use IEDs.
    During the past 8 years, JIEDDO in conjunction with the military 
services, U.S. interagency, and our multinational partners develop a 
highly effective process to target extremist networks and defeat the 
IED. Weapons Technical Intelligence (WTI) evolved from ``traditional 
technical intelligence''\3\ and leverages law enforcement techniques as 
well as forensic and biometric technology to collect, exploit, and 
analyze IED-related materials and other weapons systems.\4\ This 
process coordinates and integrates various DoD and Federal 
organizations and programs to facilitate everything from the on-site 
collection of IED material to the analysis of IED components in 
National laboratories. This analysis is then delivered to our military 
commanders to support targeting, track IED materials to their source, 
aid in host nation criminal prosecution, and enhance force protection 
for our Nation's warfighters.
---------------------------------------------------------------------------
    \3\ ``Intelligence derived from the collection, processing, 
analysis, and exploitation of data and information pertaining to 
foreign equipment and materiel for the purposes of preventing 
technological surprise, assessing foreign scientific and technical 
capabilities, and developing countermeasures designed to neutralize an 
adversary's technological advantages. Also called TECHINT.'' Joint 
Publication 1-02, 15 January, 2012.
    \4\ WTI is ``a category of intelligence and process derived from 
the forensic and technical exploitation of improvised explosive devices 
(IEDs), associated components, improvised weapons, and other weapons 
systems.'' WTI IED Lexicon, Edition 3.1, July 2011.
---------------------------------------------------------------------------
    The WTI process has proven its utility in defense of the homeland 
as well. An example of this is the 2011 arrest and indictment of two 
Iraqi nationals, Waad Ramadan Alwan and Mohanad Shareef Hammadi, on 
Federal terrorism charges in Bowling Green, Kentucky. The Federal 
Bureau of Investigation (FBI) had an on-going counterterrorism 
investigation that identified the two subjects as having supported the 
activities of insurgents in a specific part of Iraq from 2003-2006. The 
Terrorist Explosive Device Analytical Center, operated by the FBI in 
partnership with JIEDDO and other Governmental stakeholders, supported 
the on-going FBI counterterrorism investigation by using biometric data 
collected by U.S. forces and forensic techniques to definitively link 
Alwan to components collected from an unsolved IED event in Iraq during 
that time period. This is a textbook example of how WTI enables the 
military to contribute to a whole-of-Government solution to a 
transnational threat. It further illuminates the importance of a 
seamless integration, U.S. forces operating outside of the United 
States collecting intelligence that is placed into a shared database 
used by law enforcement to protect the homeland.
    The benefit of the WTI process has unlimited potential and 
applicability to defeat improvised weapon systems that provide our 
enemies an asymmetric advantage. Our commanders increasingly focus 
operations to collect biometric data, and several have referred to it 
as a game-changer. Biometric, forensic, and technical exploitation 
remove a violent extremist's greatest defense--anonymity--and makes 
them vulnerable to attribution. The WTI process provides a valuable 
framework for collecting, exploiting, analyzing, and disseminating data 
in a timely manner to those who need it most.
    Emerging technologies such as stand-off biometric collection, rapid 
DNA processing, and real-time latent fingerprint-matching hold enormous 
potential to advance the WTI process into the next generation of 
protection. These capabilities will allow security personnel to 
identify threats before they reach checkpoints and to instantaneously 
attribute criminal and illicit activities to the perpetrators.
    Moving forward, we will continue to face an ever-present threat 
from the overlapping consortium of threat networks employing IEDs as 
their weapon of choice. Mitigating the global IED threat requires a 
whole-of-governments approach. We must continue to synchronize C-IED 
and counter-threat network capabilities and actions among National, 
international, and other security stakeholders. These adaptive and 
constantly evolving threat networks require an agile and responsive 
counter-threat network to defeat them.
    It is imperative we capture and institutionalize the lessons of a 
decade of combat operations. These lessons may help fill some current 
domestic-capability gaps which would strengthen our protection of the 
homeland. There is no silver bullet to defeat an emplaced IED; our best 
defense is a warfighter or first responder with the right intelligence, 
training, and equipment. Chairman King, Chairman Lungren, Ranking 
Member Clarke, Members of the subcommittee, again, thank you for the 
opportunity to appear before you today. I look forward to your 
questions.
                                 ______
                                 
   Prepared Statement of John P. Woods, Assistant Director, Homeland 
     Security Investigations, Immigration and Customs Enforcement, 
                    Department of Homeland Security
                             July 12, 2012
                              introduction
    Chairman Lungren, Ranking Member Clarke, and distinguished Members 
of the subcommittee: On behalf of Secretary Napolitano and Director 
Morton, I would like to thank you for the opportunity to testify today. 
Improvised explosive devices (IED) are the most prevalent form of 
explosive employed by terrorists around the world and the single 
greatest threat to coalition forces in Afghanistan. According to the 
2011 annual report from the North Atlantic Treaty Organization Centre 
of Excellence, Defense Against Terrorism, there were a total of 4,744 
global IED incidents, 6,278 deaths, and 17,040 wounds from IED 
incidents around the world in 2011. As I will discuss today, U.S. 
Immigration and Customs Enforcement (ICE) is at the forefront of the 
Nation's civilian efforts to disrupt, dismantle, and investigate the 
international movement of IED components and explosives precursors.
    ICE's Homeland Security Investigations (HSI) directorate protects 
the Nation by investigating criminal organizations that seek to exploit 
weaknesses in legitimate trade, travel, and financial systems to 
further their illicit enterprises. HSI special agents detect, disrupt, 
and dismantle transnational criminal organizations (TCO) engaged in the 
smuggling of people, narcotics, bulk cash, weapons, and weapons-related 
components across our borders. HSI also has authority to investigate 
criminal violations of, and enforce, all U.S. export control laws 
related to military items, controlled ``dual-use'' commodities (i.e., 
items that have both commercial and military applications), and 
sanctioned or embargoed countries. Further, we have the capability to 
expand the scope of our investigations beyond our domestic offices to 
72 international offices situated throughout the world.
                         program global shield
    To combat the illicit use of precursor chemicals by terrorist and 
other TCOs for the manufacture of IEDs, ICE initiated Program Global 
Shield (Global Shield) an unprecedented, multi-lateral law enforcement 
effort aimed at combating the illicit diversion and trafficking of 
precursor chemicals used in making explosives by monitoring their 
cross-border movements. This joint ICE and U.S. Customs and Border 
Protection (CBP) global project--proposed by ICE at the World Customs 
Organization (WCO) Enforcement Committee Meeting in Brussels, Belgium 
in spring of 2010--is based on collaboration among the WCO, INTERPOL, 
and the United Nations Office on Drugs and Crime (UNODC). This 
collaboration represents the first time that the threat posed by 
explosives precursors has been collectively addressed by the 
international community.
    The ultimate goal of Global Shield is to identify and interdict 
falsely-declared precursor chemicals, initiate investigations, and 
uncover smuggling networks. In doing so, ICE and CBP aim to build 
capacity among strategic partners to detect illicit shipments of 
explosive precursors and promote cooperation among foreign customs and 
police administrations in combating the illicit diversion of explosive 
precursors along the global supply chain. By working together and 
sharing real-time information and intelligence, countries will be able 
to verify the legitimacy of individual shipments while identifying, 
disrupting, and dismantling the terrorist networks involved in the 
illicit procurement of these chemicals via front companies and 
complicit middlemen. ICE and CBP are working closely with stakeholders 
from across the Federal Government, including the U.S. Departments of 
State (DOS) and Defense (DOD), to accomplish these goals.
    The mass production of ammonium nitrate (which can be used for a 
variety of legitimate purposes) and other precursor chemicals occurs 
largely beyond the borders of countries most afflicted by IEDs. A 
global effort is therefore essential to effectively combat their 
illicit smuggling and diversion. The government of Afghanistan took a 
crucial first step on September 23, 2009, by banning the importation of 
ammonium nitrate fertilizer and issuing a decree permitting its 
confiscation if stored in or transported through Afghanistan. This ban 
quickly achieved significant results. In November 2009, Afghanistan 
seized 500,000 pounds of ammonium nitrate in Kandahar--one of the 
largest seizures of its kind in Afghanistan.
    Due to the successes of Global Shield's pilot project, which 
commenced operations in November 2010 and concluded in April 2011, the 
WCO designated Global Shield as a long-term program in June 2011. In 
September 2011, the Bureau of International Narcotics and Law 
Enforcement Affairs in DOS provided $5.9 million in funding to the WCO 
to support and execute Global Shield over the next 3 years. This 
funding will support technical assistance and operational training, 
communications and industry outreach, and program management and 
quality assurance and support. To date, 79 countries and 11 
international organizations participate in Global Shield. As of early 
June 2012, Global Shield successes include 40 enforcement actions and 
41 seizures totaling 125.16 metric tons of explosives precursor 
chemicals.
    Through Global Shield, ICE and CBP have developed a training 
program to develop and build capacity for foreign partners. The 
capacity-building program can be customized based on our partners' 
current abilities and legal structures. The program assists our 
partners in customs process development, including adoption of laws and 
regulations, commodity identification, IED awareness, inspection of 
chemical shipments, seizure of illicit shipments, investigations, and 
prosecution. This process not only focuses on seizing illicit shipments 
of precursor chemicals, but on identifying the networks responsible and 
dismantling or disrupting these networks. The first regional Global 
Shield training took place in June 2012, in Baku, Azerbaijan with nine 
countries participating. Additional training is being scheduled for 
other countries.
    We believe that Global Shield provides invaluable data for trend 
analysis to increase the global understanding of the risk posed by 
precursor chemicals and their illicit movement. The program will 
identify best practices to combat the illicit diversion and trafficking 
of precursor chemicals used to manufacture explosives, as well as 
monitor and track legitimate shipments of precursor chemicals to assist 
in identifying high-risk routes for future enforcement activity. Global 
Shield will set the foundation for future multilateral initiatives to 
deny terrorists access to explosives components.
           ice's counter-proliferation investigation program
    ICE is at the forefront of the U.S. Government's efforts to prevent 
foreign adversaries from illegally obtaining U.S. military products. 
HSI's Counter-Proliferation Investigations (CPI) Unit targets the 
trafficking and/or illegal export of conventional military equipment, 
firearms, controlled dual-use equipment and technology, and materials 
used to manufacture weapons of mass destruction, including chemical, 
biological, radiological, and nuclear materials. HSI special agents 
investigate illegal exports of military equipment and dual-use items to 
embargoed countries, and significant financial and business 
transactions with proscribed countries and groups. HSI special agents 
provide outreach with private industry in the United States and 
internationally. As a capacity-building partner with the Department of 
State's Export Control and Related Border Security Assistance (EXBS) 
Program, HSI also conducts export enforcement training for foreign law 
enforcement and customs agencies.
    The primary goal of the HSI CPI program is the detection and 
disruption of illegal exports and networks before any controlled items 
or technologies fall into the wrong hands. HSI's export enforcement 
program uses a three-pronged approach: Detecting illegal exports, 
investigating potential violations, and obtaining international 
cooperation to investigate leads abroad. HSI relies on specially-
trained CBP officers stationed at ports of entry to inspect suspect 
export shipments. Following detection of a violation, HSI special 
agents deployed throughout the country initiate and pursue 
investigations to identify, arrest, and seek prosecution of offenders 
of the Arms Export Control Act of 1976, the Export Administration 
Regulations, the International Emergency Economics Powers Act, and 
other related statutes and provisions.
    The international nature of proliferation networks and schemes 
requires a global investigative response. The HSI Office of 
International Affairs has 72 offices around the world that work to 
enlist the support of their host governments to initiate new 
investigative leads and to develop information in support of on-going 
domestic investigations.
    Due to the threat IEDs pose to the United States and our interests 
abroad, the HSI CPI Unit established a specialized program to initiate 
investigations and share law enforcement intelligence information 
concerning the illicit movement of IED components and precursor 
chemicals. To this end, HSI partnered with CBP, the DHS National 
Protection and Programs Directorate's Office of Bombing Prevention, and 
DOS and DOD (specifically with the Joint Improvised Explosive Device 
Defeat Organization (JIEDDO)). As part of HSI's own counter-IED 
strategy, these partners are currently working with our colleagues in 
CBP to schedule additional investigative and interdiction training for 
customs and law enforcement officials in Afghanistan and Pakistan. In 
December 2010, HSI provided training for approximately 100 customs 
officials from these countries.
    HSI's collaboration with JIEDDO's homemade explosives working group 
has led to a better understanding of how transnational criminal 
networks are exploiting the global supply chain to illegally move IED 
precursor chemicals. Additionally, HSI's Attache office in Kabul, 
Afghanistan worked with JIEDDO elements in country to identify networks 
smuggling IED precursor chemicals from Pakistan into Afghanistan.
    HSI also worked with the DOS during the U.S.-Pakistan Strategic 
Dialogue relating to IEDs and controls of IED components and precursor 
chemicals. These partnerships are leading to a more holistic approach, 
allowing agencies to identify the most effective method to disrupt the 
criminal and terrorist networks procuring and using IEDs.
                      project shield america (psa)
    One of the most effective tools HSI special agents use as part of 
HSI's larger counter-proliferation strategy is our industry outreach 
program, Project Shield America (PSA). Through this program, HSI 
special agents conduct outreach to manufacturers and exporters of 
strategic commodities to educate them on U.S. export control laws, 
discuss export licensing issues and requirements, teach them how to 
identify ``red flag'' indicators used in illegal procurement, and 
explain which Government agencies are responsible for the licensing of 
different categories of export-controlled commodities and technology. 
By the end of 2011, HSI special agents had delivered over 20,000 
outreach presentations to private industry and other entities as part 
of the PSA program.
             export enforcement coordination center (e2c2)
    A part of the President's Export Control Reform Initiative is to 
improve law enforcement coordination to investigate violations of U.S. 
export control laws. In November 2010, President Obama signed an 
Executive Order creating the Export Enforcement Coordination Center 
(E2C2)--a multi-agency center housed within HSI that serves as the 
primary Government forum for the exchange of information and 
intelligence related to export enforcement. Operational since April of 
this year, the E2C2, which is managed and operated by ICE, enhances the 
United States' ability to combat illicit proliferation by working to 
coordinate investigative and enforcement activities related to export 
control.
    The E2C2 is staffed with full-time personnel from HSI, as well as 
individuals detailed from other departments and agencies including the 
U.S. Departments of State, Treasury, Defense, Justice, Commerce, and 
Energy; the Office of the Director of National Intelligence; and other 
Executive branch departments, agencies, or offices as designated by the 
President. Specifically, the functions of the E2C2 include:
  <bullet> Coordinating the de-confliction of criminal and 
        administrative enforcement actions, and resolving conflicts 
        among partner agencies that have not been otherwise resolved in 
        the field;
  <bullet> Serving as a primary point of contact between enforcement 
        authorities and agencies engaged in export licensing;
  <bullet> Coordinating law enforcement public outreach activities 
        related to U.S. export controls; and
  <bullet> Establishing Government-wide statistical tracking 
        capabilities for U.S. export enforcement activities.
    The E2C2 replaced HSI's National Export Enforcement Coordination 
Network (NEECN), which led coordination among DHS components to address 
challenges inherent in dismantling transnational procurement networks. 
Unlike the NEECN, the Executive Order requires E2C2 participation by 
law enforcement and the intelligence community.
                               conclusion
    HSI special agents are working hard to ensure that IED components 
and precursors do not reach the wrong hands, and to prosecute those who 
subvert the rule of law and threaten our National security. 
Furthermore, HSI is coordinating our efforts with other U.S. and 
foreign governments to enhance our and other agencies to counter IED 
abilities. We look forward to continuing to work with this subcommittee 
on this critical National security issue.
    Thank you once again for the opportunity to appear before you 
today. I would now be pleased to answer any questions you have.
                                 ______
                                 
     Prepared Statement of Charles Michael Johnson, Jr., Director, 
     International Counterterrorism & Security Assistance Issues, 
                   Governement Accountability Office
                        Thursday, July 12, 2012
counterterrorism.--u.s. agencies face challenges countering the use of 
    improvised explosive devices in the afghanistan/pakistan region
                              gao-12-907t
    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee: I am pleased to be here to discuss the collaborative 
efforts of U.S. agencies to detect and prevent the smuggling into 
Afghanistan of calcium ammonium nitrate (CAN) fertilizer produced in 
Pakistan. Approximately 80 percent of the improvised explosive devices 
(IEDs) in Afghanistan contain homemade explosives, primarily CAN 
smuggled from Pakistan. These IEDs have been a major source of 
fatalities among U.S. troops in Afghanistan and have been used by 
various insurgent groups in Pakistan to kill thousands of Pakistani 
civilians and members of Pakistani security forces. U.S. officials 
recognize the threat posed by the smuggling of CAN and other IED 
precursors from Pakistan into Afghanistan, and various U.S. 
departments, including the Department of Homeland Security (DHS), are 
assisting Pakistan's government in countering this threat. My remarks 
today are based on our May 2012 report on this issue.\1\
---------------------------------------------------------------------------
    \1\ GAO, Combating Terrorism: State Should Enhance Its Performance 
Measures for Assessing Efforts in Pakistan to Counter Improvised 
Explosive Devices, GAO-12-614 (Washington, DC: May 15, 2012).
---------------------------------------------------------------------------
    According to the Department of Defense (DOD), CAN is produced in 
Pakistan at two factories. DOD estimates that about 240 tons of CAN--
representing less than one-tenth of 1 percent of the two factories' 
total annual production capacity--is used by insurgents to make IEDs 
for use in Afghanistan. When processed and mixed with fuel oil, CAN 
fertilizer becomes a powerful homemade explosive. DOD officials noted 
that only a small amount of CAN is required to make powerful IEDs. 
According to DOD, a 110-pound bag of CAN yields about 82 pounds of 
bomb-ready explosive material. This small quantity has the capacity to 
destroy an armored vehicle or detonate 10 small blasts aimed at U.S. 
forces conducting foot patrols.
    Afghanistan outlawed CAN in 2010, but because of demand for CAN as 
fertilizer and for IEDs, smugglers bring it into the country, for 
example, on trucks hidden under other goods. Afghanistan and Pakistan 
face challenges similar to those that the United States and Mexico face 
in trying to prevent smuggling across sections of our shared border. 
U.S. officials note that Pakistan maintains two primary border 
crossings along the approximately 1,500-mile border with Afghanistan, 
and only a small percentage of the trucks crossing the border are 
inspected. Our May 2012 report contains a video of activity at border 
crossings along the Afghanistan-Pakistan border.
    Our May 2012 report: (1) Described the status of U.S. efforts to 
assist Pakistan in countering IEDs, and (2) reviewed the Department of 
State's (State) tracking of U.S.-assisted efforts in Pakistan to 
counter IEDs. To describe these efforts, we reviewed documentation from 
multiple U.S. agencies--including DHS, State, the Department of Defense 
(DOD), and the Department of Justice--to inventory and describe their 
relevant activities and performance measures. We also interviewed 
representatives of U.S. agencies and international partners in the 
United States and Pakistan.\2\
---------------------------------------------------------------------------
    \2\ More detail on our scope and methodology is available in the 
issued report. We conducted this performance audit from October 2011 to 
May 2012 in accordance with generally accepted Government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    In summary, we identified four categories of assistance U.S. 
agencies have provided: (1) Counter-IED training and equipment, (2) a 
counter-IED public awareness campaign, (3) training of border 
officials, and (4) legal assistance for laws and regulations to counter 
IEDs and IED precursors. We found that each agency providing counter-
IED assistance to Pakistan performs a unique role based on its 
specialized knowledge and expertise. DHS, for example, takes primary 
responsibility for border management and customs investigation 
training. DHS conducts joint regional training and operational 
exercises for both Pakistani and Afghan border officials, including 
international border interdiction training and cross-border financial 
investigation training. DHS also plays a lead role in Program Global 
Shield to foster cross-border cooperation and initiate complementary 
border management and customs operations.\3\ According to DHS, the main 
goals of Program Global Shield are: (1) To identify and interdict 
falsely declared explosive precursor chemicals, (2) to initiate 
investigations of smuggled or illegally diverted IED materials, and (3) 
to uncover smuggling and procurement networks that foster illicit 
trade.
---------------------------------------------------------------------------
    \3\ Program Global Shield is an international effort to counter the 
smuggling of chemical precursors that could be used to manufacture 
IEDs, including CAN. The World Customs Organization, the United Nations 
Office on Drugs and Crime, Interpol, and DHS jointly initiated this 
project in 2010 and established it as a program in June 2011 with 
funding of about $5.9 million that State provided through its Bureau of 
International Narcotics and Law Enforcement Affairs, according to the 
Bureau's Global Shield liaison officer.
---------------------------------------------------------------------------
    According to agency officials, U.S. agencies work through various 
organizations to coordinate and share information related to assisting 
Pakistan with counter-IED efforts. These include the following:
  <bullet> The U.S. Embassy-Pakistan Counter-IED Working Group helps to 
        keep counter-IED efforts a priority. Coordinated by State, the 
        group also includes participants from DHS, DOD, and the 
        Departments of Justice and Agriculture as well as the U.S. 
        Agency for International Development, the British High 
        Commission, and the United Nations Office of Drugs and Crime.
  <bullet> The Joint Improvised Explosive Device Defeat Organization 
        (JIEDDO) \4\ leads DOD's counter-IED efforts by providing 
        intelligence and expertise on IEDs. For example, JIEDDO hosted 
        a global conference on homemade explosives in fall 2011 that 
        was attended by fertilizer producers and representatives from 
        several agencies. JIEDDO conducted several studies and provided 
        technical assistance to fertilizer producers on how they could 
        mark the product to help inhibit smuggling.
---------------------------------------------------------------------------
    \4\ JIEDDO is an agency of DOD.
---------------------------------------------------------------------------
  <bullet> The Office of the Special Representative for Afghanistan and 
        Pakistan participates in regular discussions on counter-IED 
        issues with Central Command (CENTCOM), Special Operations 
        Command (SOCOM), JIEDDO, and the Counter-IED Working Group at 
        the U.S. Embassy in Pakistan, which includes DHS.
    In providing assistance to Pakistan, which adopted a counter-IED 
strategy in 2011, U.S. agencies have encountered a range of challenges. 
U.S. officials in Washington, DC, and Islamabad, Pakistan identified 
the following key difficulties that hamper the provision of training 
and equipment.
  <bullet> Obtaining visas for U.S. officials.--We have previously 
        reported that U.S. officials face delays in obtaining visas to 
        travel to Pakistan.\5\ During our January 2012 meetings at the 
        U.S. Embassy, officials from several agencies told us that it 
        is difficult to obtain visas for U.S. officials, including 
        trainers, to travel to Pakistan. According to officials, visa 
        renewals sometimes take up to 6 weeks, which can force trainers 
        to leave the country until they get their visa renewed. This 
        has sometimes resulted in disruptions and cancelled training 
        courses.
---------------------------------------------------------------------------
    \5\ GAO, Accountability for U.S. Equipment Provided to Pakistani 
Security Forces in the Western Frontier Needs to Be Improved, GAO-11-
156R (Washington, DC: Feb. 15, 2011).
---------------------------------------------------------------------------
  <bullet> Vetting Pakistani officials to receive U.S. training.--U.S. 
        law requires that U.S. agencies determine whether there is 
        credible evidence of gross violations of human rights by 
        security force units or individuals slated to receive security 
        assistance.\6\ According to U.S. officials, Pakistan must 
        provide in advance the names of individuals who will be 
        receiving U.S. training in order for them to be vetted. In 
        addition U.S. officials stated that Pakistan has not always 
        been timely in releasing the names of officials who are to 
        receive the training, which can create logistics and scheduling 
        difficulties. For example, according to DHS officials, lack of 
        sufficient time to complete the vetting process resulted in the 
        cancellation of a Program Global Shield training session in 
        October 2011.
---------------------------------------------------------------------------
    \6\ See 22 U.S.C. 2378d regarding assistance furnished under the 
Foreign Assistance Act or the Arms Export Control Act. For programs 
funded by DOD appropriations, the provision is limited to training 
programs and is incorporated annually in the Department of Defense 
Appropriations Act. See, for example, Pub. L. No. 112-10, Div. A. sec. 
8058.
---------------------------------------------------------------------------
  <bullet> Ensuring timely delivery of equipment.--Problems clearing 
        customs and other issues have delayed the transfer of counter-
        IED equipment from the United States to Pakistani forces. For 
        example, as of April 2012, of the 110 IED jammers that DOD 
        procured in 2009 for Pakistan at a cost of about $22.8 million, 
        55 jammers were still in Karachi awaiting release from 
        Pakistani customs. The remaining 55 jammers were being kept in 
        storage in the United States until the initial 55 were 
        released.
  <bullet> Reaching agreement on the specifics of U.S. assistance 
        projects.--Efforts by the United States to reach agreement with 
        Pakistan on the specific terms of assistance projects can be 
        challenging. For example, the United States and Pakistan 
        planned to establish a facility capable of exploiting chemical, 
        technical, biometric, and documentary evidence to enable 
        Pakistan to disrupt insurgent networks. According to DOD 
        officials, once it became clear that the United States and 
        Pakistan could not reach agreement on joint use of the 
        facility, DOD terminated its support for establishing this 
        facility.
    In addition to these challenges to U.S. efforts to assist Pakistan, 
U.S. officials identified several broader challenges to Pakistan's 
ability to counter IEDs and, more specifically, to suppress the 
smuggling of CAN and other IED precursors across the Pakistani border 
with Afghanistan.
  <bullet> History of smuggling across the Pakistan-Afghanistan 
        border.--Segments of the Afghanistan-Pakistan border remain 
        porous and are difficult to patrol. The border between Pakistan 
        and Afghanistan is approximately 1,500 miles long and much of 
        the terrain along the central and northern border is rugged and 
        mountainous. There is a history of smuggling goods in both 
        directions at many points along this porous border.
  <bullet> Availability of CAN substitutes for IEDs.--Even if the 
        smuggling of CAN could be suppressed, insurgents can readily 
        use another precursor chemical to make IEDs. According to DOD, 
        other products available in Pakistan--such as potassium 
        chlorate, used in making matches, and urea, another commonly 
        used fertilizer--can also be used to produce IEDs. At a JIEDDO 
        conference on homemade explosives, a panel of experts agreed 
        that insurgents could easily substitute these commodities to 
        make IEDs if it becomes more difficult for them to access CAN.
  <bullet> Smuggling of IED precursors into Afghanistan from other 
        bordering countries.--While Pakistan is the principal source of 
        CAN coming into Afghanistan, China and Iran are also reported 
        to be suppliers of IED precursor chemicals. According to State 
        officials, other substitutes for CAN, including potassium 
        chlorate and urea, are exported by countries other than 
        Pakistan.
  <bullet> Delay in finalizing Pakistan's National Counter-IED 
        Implementation Plan.--Pakistan's Directorate General for Civil 
        Defense has developed a National Counter-IED Implementation 
        Plan as outlined in the National Counter-IED Strategy. However, 
        as of April 2012, the plan had not been approved due to 
        concerns over resourcing and other issues.
    Our May 2012 report also found that U.S. agencies have developed a 
new performance indicator and three targets to track some U.S.-assisted 
Pakistani counter-IED efforts. Specifically, State's fiscal year 2013 
Mission Strategic and Resource Plan--which is designed to reflect U.S. 
priorities in Pakistan--included a performance indicator to monitor 
Pakistan's implementation of effective measures to prevent illicit 
commerce in sensitive materials, including chemical precursors used to 
make IEDs in Afghanistan. To measure progress toward this performance 
indicator, the plan included three targets: (1) Implementation of the 
Afghanistan-Pakistan Transit Trade Agreement for fiscal year 2011, (2) 
improved competency of Pakistani customs and border officials and 
improved monitoring at border stations for fiscal year 2012, and (3) 
Pakistan's implementation of a real-time truck-tracking system for 
fiscal year 2013.
    While the inclusion of a counter-IED performance indicator and 
targets to measure progress toward the indicator in the fiscal year 
2013 MSRP is a positive step, it does not reflect the broad range of 
U.S.-assisted counter-IED efforts in Pakistan. As a result, our report 
included a recommendation to State to enhance its counter-IED 
performance measures to cover the full range of U.S.-assisted efforts. 
State concurred with our recommendation and noted that comprehensive 
metrics would better enable evaluation of progress in counter-IED 
efforts in Pakistan. State committed to improve assessment of its 
programs by looking for ways to broaden the scope of existing metrics 
in order to better reflect and evaluate interagency participation in 
counter-IED efforts. In its comments on a draft of our report, DHS 
noted that it is committed to working with interagency partners to 
improve capacity for tracking counter-IED efforts in Pakistan.
    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee, this concludes my statement. I would be happy to answer 
any questions you may have at this time.

                                 <all>

</pre></body></html>
